Theodore J. Folkman
Partner
One Liberty Square
Boston, MA 02109
tfolkman@piercebainbridge.com
(617) 229-5415

March 10, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Canada v. Merlini, No. 19-1101
Dear Mr. Harris,
I am counsel for the Respondent in Canada v. Merlini, No. 19-1101. The brief in opposition to
the Petition for a Writ of Certiorari is currently due on April 8, 2020.
I write to request a fourteen-day extension of time, to April 22, 2020, to file the brief in
opposition. I am scheduled to begin a trial in the Los Angeles County Superior Court on Wednesday,
March 11, 2020 (I understand that the first day of trial may be delayed). The trial is scheduled to
conclude by March 25, 2020. Because of my trial commitment, I require the additional time I have
requested to prepare the brief in opposition.
Sincerely,
/s/ Theodore J. Folkman
Theodore J. Folkman
cc:

Counsel of Record (by mail and email)

Pierce Bainbridge Beck Price & Hecht LLP
BOS | CLE | DC | LA | NY

